Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Nebraska Medicare Part D Contributions to the Centers for Medicare & Medicaid Services for "Full-Duals"
August 08, 2008 | Audit A-07-07-01040
Executive Summary
From January through October 2006, the Nebraska Department of Health and Human Services (Nebraska) did not always make a corresponding contribution payment to the Centers for Medicare & Medicaid Services (CMS) on behalf of Medicaid recipients who were also eligible for Medicare (full-duals).  Federal regulations require States to make contribution payments to CMS in order to defray a portion of the costs of the Medicare Part D program.
Our review found that for the 300 statistically sampled beneficiary-months, Nebraska (1) was not required to make contributions to CMS because the beneficiaries were not actually full-duals in the sampled months or were not identified in the State's Medicaid eligibility records or (2) made subsequent retroactive contributions to CMS.  Our report made no recommendations.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS